No.

IN THE
SUPREME COURT OF THE UNITED STATES

Jessica Graulau - Petitioner,
v.
Credit One Bank, N.A. * Respondent.

PROOF OF SERVICE
I Jessica Graulau, the petitioner, in compliance with United States Supreme
have served via U.S.P.S. certificate

Court Rule 29.5 declare that on,

mail no. 70201810000147083217 this PETITION FOR A WRIT OF CERTIORARI
on respondent Credit One Bank, N.A.’s attorneys Michael P. Schuette, Esq. and
Dayle M. Van Hoose, Esq. to their address on record: 3350 Buschwood Park Drive,
Suite 195, Tampa, Florida 33618.

I Jessica Graulau declare under penalty of

perjury that this foregoing is true and correct.
Executed on

by petitioner Jessica Graulau,

f JessicaGraulau ^Signature)

